                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number:. 1-09080049                                                                      Page 1 of1



        We received a complaint that two employees I ofan NSF contractoc had used the unmonitored NSF
        high-speed network for unauthorized personal purposes by accessing websites that would be blocked
        by the monitoring software in place on NSF's regular internal network. The complainane also
        alleged that he had notified the employees' supervisor4 oftheir activities, but the supervisor refused
        to take action.

        From interviews ofone ofthe subjectsS and other investigation, we detennined thatthe other subject
        did use the high-speed network to conduct personal stock trading on a recurring basis in violation of
        NSF pOlicy fo'tbidding personal use of infonnation technology for priVate business purposes, but
        could not be disciplined because he was no longer employed by the contractor or working at NSF.
        We further detennined that the websites the complainant mentioned in his complaint were not
        blocked by monitoring software on the internal network,. suggesting that the subject conducted his
        stock trading on the high:-speed network inarder to minimize the audit trail ofinformation about his
        activities. We found insufficient evidence to support the allegations ofwrongdoing on the part ofthe
        subject we interviewed and the supervisor.

         We notified NSF ofthe vulnerability ofthe high-speed network to misuse as a resultofthe absence
       . of monitorinWblocking software6 and requested notification of any steps taken to address security .
         concerns.

         In light ofthe above, no further investigative effort is necessary in this matter.

         Accordingly, this case is closed.




NSF OIG Fonn 2 (1II02)
